<html>
<title> - REVIEW OF THE FAA'S PROGRESS IN IMPLEMENTING THE FAA MODERNIZATION AND REFORM ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                    REVIEW OF THE FAA'S PROGRESS IN
                   IMPLEMENTING THE FAA MODERNIZATION
                             AND REFORM ACT

=======================================================================

                                (113-15)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 16, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-937 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY
                                ------                                

                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman
THOMAS E. PETRI, Wisconsin           RICK LARSEN, Washington
HOWARD COBLE, North Carolina         PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
SAM GRAVES, Missouri                     Columbia
BLAKE FARENTHOLD, Texas              EDDIE BERNICE JOHNSON, Texas
LARRY BUCSHON, Indiana               MICHAEL E. CAPUANO, Massachusetts
PATRICK MEEHAN, Pennsylvania         DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ANDRE CARSON, Indiana
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida                  CORRINE BROWN, Florida
MARK MEADOWS, North Carolina         NICK J. RAHALL, II, West Virginia
RODNEY DAVIS, Illinois, Vice Chair     (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)











                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. Michael P. Huerta, Administrator, Federal Aviation 
  Administration.................................................     8

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Michael P. Huerta:

    Prepared statement...........................................    22
    Answers to questions from the following Representatives:

        Hon. Frank A. LoBiondo, of New Jersey....................    35
        Hon. Sam Graves, of Missouri; responses include ``A White 
          Paper on the National Aeronautical Charting Office 
          (NACO) High Performing Organization (HPO),'' Federal 
          Aviation Administration (June 30, 2008)................    56
        Hon. Rodney Davis, of Illinois...........................   124
        Hon. Rick Larsen, of Washington..........................   126
        Hon. Andre Carson, of Indiana............................   131
        Hon. Ann Kirkpatrick, of Arizona.........................   138

                       SUBMISSIONS FOR THE RECORD

Hon. Larry Bucshon, a Representative in Congress from the State 
  of Indiana, request to submit letter from the Indiana 
  congressional delegation to Hon. Ray LaHood, Secretary, U.S. 
  Department of Transportation and Hon. Michael P. Huerta, 
  Administrator, Federal Aviation Administration, which urges Mr. 
  LaHood and Mr. Huerta to consider the application of the Ohio/
  Indiana Unmanned Aircraft Systems Center and Test Complex to 
  serve as one of the six Unmanned Aircraft Systems test sites 
  required by the FAA Modernization and Reform Act of 2012.......     5




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
                    REVIEW OF THE FAA'S PROGRESS IN
                   IMPLEMENTING THE FAA MODERNIZATION
                             AND REFORM ACT

                              ----------                              


                         THURSDAY, MAY 16, 2013

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:54 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. The committee will come to order. Good 
afternoon. Apologies. Series of votes. Longer than expected. 
Yada, yada, yada. But we apologize.
    As a followup to our February hearing we are again going to 
attempt to examine what progress the FAA has made in 
implementing the Modernization and Reform Act that was signed 
into law on February 14th of 2012. The reform act was passed 
after 5 years--5 excruciating years--of short-term extensions, 
but it created a stable 4-year framework for the FAA, industry, 
and other stakeholders. The act makes important reforms to the 
aviation system and to the FAA in order to increase efficiency 
and modernize the system, and ensures that we maintain a safe, 
modern, and efficient civil aviation system for now and into 
the future. Ensuring implementation of the FAA reauthorization 
is and will remain a top priority of the subcommittee.
    NextGen is a central part of the reform law. I am extremely 
fortunate to represent New Jersey's Second Congressional 
District, which happens to include the FAA's premier technical 
center. So I have seen firsthand the work that goes on there 
and I have been able to learn more about why NextGen is 
important to the FAA, the aviation industry, and the traveling 
public.
    What has become clear is that we must attempt to do more--
we must do more--to provide certainty for the FAA and the 
stakeholders, which is why the reform act requires the FAA to 
appoint a chief NextGen officer for a term of 5 years. This is 
going to help with the technology and accelerates deployment of 
the performance-based navigation procedures for large, medium, 
and small airports. The reform act also requires the FAA to 
include FAA employees, such as air traffic controllers, in the 
modernization process, and requires the FAA, with input from 
the industry, to identify operational incentives to encourage 
the aviation industry to equip with necessary avionics.
    The FAA is making progress with some of these efforts, and 
I want to thank Administrator Huerta for his efforts. But we 
know that we still have a long way to go together. Since the 
subcommittee's last hearing, the Aviation Subcommittee has held 
the first in a series of listening sessions broadly focused on 
implementation of NextGen. We were able to hear from industry 
stakeholders about various issues of concern in the 
implementation of NextGen air traffic control procedures.
    Next week we are holding a second NextGen listening 
session. This will give the subcommittee an opportunity to hear 
from the FAA and industry stakeholders in a less formal 
setting. We, of course, intend to use what we learn in the 
listening sessions to help us, industry, and FAA achieve near-
term real world benefits, measurable benefits from NextGen.
    Today, I look forward to hearing from Administrator Huerta 
what the plan is for the FAA to fully implement the reform act. 
In particular, I am interested in learning how the FAA is 
complying with the various safety modernization, reform, and 
good governance provisions included into law.
    The FAA has had some successes in implementing the act. 
However, similar to NextGen, the FAA has also faced some 
challenges and is behind on some of its deadlines. 
Administrator Huerta will testify that the FAA is on track to 
meet or has met 80 percent of the deliverables, including the 
FAA reauthorization law, and has currently completed half of 
that.
    But I think, Mr. Huerta, even you would agree that not all 
of the reauthorization requirements are created equal. The FAA 
has yet to complete some of the most important and challenging 
requirements of the law, including the Unmanned Aircraft 
Systems, UAS, integration plan to allow for safe integration of 
UAS by 2015. The small UAS rulemaking, the facility realignment 
and consolidation plan, and reforming and streamlining 
certification processes. Completion of these requirements are 
delayed. And I look forward to hearing from Administrator 
Huerta on what we can expect, when we can expect to see more 
progress, and what we may be able to do to help be a force 
multiplier for you.
    Before we turn to Administrator Huerta for a statement, I 
would like to ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
extraneous material for the record of this hearing.
    Without objection, so ordered.
    Mr. LoBiondo. I now would like to yield to Mr. Larsen for 
any statement you may have.
    Mr. Larsen. Thanks, Chairman LoBiondo, for calling today's 
hearing to review the FAA's progress in implementing the 
reauthorization law. For the past several weeks, budget 
sequestration and its effect on the FAA have distracted the 
subcommittee's oversight on reauthorization. And I just want to 
make a few brief remarks on that and refocus on the agency's 
implementation of FAA reauthorization, which contains several 
important provisions.
    First, last month we took action to end air traffic 
controller furloughs and airline delays throughout the system. 
That said, the public should understand that this action was 
only a temporary solution. Sequestration will have lingering 
effects this fiscal year that we need to better understand, and 
the bill ending the furloughs that passed last month does come 
at a cost. Lost funding for the Airport Improvement Program 
means less investment in our Nation's airports and less long-
term competitiveness for our economy.
    Our country already does not have a top 25 airport, 
according to annual rankings that came out last month, and 
cutting AIP makes that climb tougher. Moreover, if we don't 
pass or enact a longer term comprehensive and balanced solution 
to cut the deficit and end sequestration, then none of my 
colleagues should act surprised when we are backed into another 
crisis in the aviation sector this October.
    Mr. Chairman, a key feature of the FAA reauthorization law 
was the new policy direction it provided for the FAA's NextGen 
initiative and development of new technologies. The 
subcommittee must provide vigorous oversight to ensure these 
provisions are effectively implemented. For example, theFAA 
reauthorization sought to increase leadership and 
accountability over NextGen by creating a chief NextGen officer 
position. Congress created this position to break through 
bureaucratic barriers at the FAA and to unify the agency's 
NextGen efforts, but it has been vacant for over a year. So I 
am pleased that yesterday the administration announced that it 
would appoint a new deputy administrator who will fill the role 
of chief NextGen officer.
    Section 212 of the reauthorization requires the FAA to 
implement more fuel-efficient, performance-based navigation 
procedures at the Nation's top 35 airports and to report to 
Congress on its progress. Yet to date the FAA has not produced 
the implementation plan and the report required by law that is 
several months overdue.
    The FAA is also working with the RTCA NextGen Advisory 
Committee and industry stakeholders to analyze nontechnical 
barriers to implementing performance-based navigation. I look 
forward to hearing an update from Administrator Huerta 
regarding the FAA's efforts to implement these procedures.
    Aviation manufacturing and technology development are major 
economic drivers in my home State of Washington. Therefore, I 
am pleased with the FAA reauthorization, that it contained 
important provisions to improve the FAA's processes for 
certifying airplanes, engines, and other products. To address 
these issues raised by the GAO, section 313 required the FAA to 
convene an advisory panel to address inconsistent 
interpretations of flight standards and aircraft certification 
regulations. Unfortunately, that report to Congress on this 
effort is overdue.
    The FAA reauthorization also requires the agency to develop 
a plan for safely integrating Unmanned Aircraft Systems into 
the National Airspace System by December 2015. The FAA's Joint 
Planning and Development Office has collaborated with industry 
stakeholders and other Federal agencies to develop and finalize 
a comprehensive UAS implementation plan. Additionally, the FAA 
will select six test sites this year to gather data on how UAS 
operations may impact air traffic operations.
    I would like Administrator Huerta to identify some of the 
technical issues that need to be tested and resolved so that 
unmanned systems can safely and routinely operate in civil 
airspace. These are all critical issues for maintaining an 
American leadership in the aviation sector. And I am hopeful 
that the FAA and this subcommittee will continue to work 
together to meet the challenges that we have ahead of us.
    Thank you. I look forward to hearing from our witness. And 
I yield back.
    Mr. LoBiondo. Thank you, Mr. Larsen.
    Mr. LoBiondo. Normally we don't go to Members for opening 
sessions, but Mr. Bucshon has a special circumstance with 
needing to manage the floor, so he has asked for 1 minute. And 
with the committee's indulgence, you are recognized.
    Dr. Bucshon. Thank you for your indulgence, Mr. Chairman.
    Thank you for coming back today, Mr. Huerta. As you know, 
the FAA reauthorization, in that we authorized several test 
sites for Unmanned Aircraft Systems. Indiana and Ohio have 
jointly applied to be a test site. I just want to submit for 
the record the letter that the entire Indiana delegation sent 
to the DOT regarding our application and put in a plug for our 
State. It is a great place to do business. We would love to 
work with the FAA on this issue.
    Thank you, Mr. Chairman. I want to submit this for the 
record.
    Mr. LoBiondo. Without objection, so ordered.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Dr. Bucshon. Thank you. I yield back.
    Mr. LoBiondo. Thank you.
    Mr. LoBiondo. Mr. Huerta, once again, we apologize for the 
delay. And you are recognized.

  TESTIMONY OF HON. MICHAEL P. HUERTA, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Huerta. Thank you. Chairman LoBiondo, Ranking Member 
Larsen, and members of the subcommittee, a year ago Congress 
reauthorized the Federal Aviation Administration after 4\1/2\ 
years of uncertainty and stopgap measures. The biggest benefit 
of reauthorization was that it would provide predictability and 
allow us to invest with greater certainty in the future. So we 
are grateful for your effort on this and we have been working 
very diligently in the past year to implement the provisions of 
reauthorization.
    As we move forward, the number one mission of the FAA is 
safety. This will always be our priority. In the last few 
years, Congress has given us much guidance on how to advance 
aviation safety and we have accomplished a great deal. The FAA 
overhauled flight and duty rules to guarantee that airline 
pilots have the opportunity to get the rest they need to 
operate safely, and we are raising the required numbers of 
hours of experience before a pilot can operate the controls on 
any airline flight.
    We are also finalizing a rule that will require more 
rigorous training so that flight crews can better handle rare 
but serious scenarios. We are also improving our safety culture 
at the FAA and throughout the industry by voluntarily reporting 
hazards before they could become a problem and by adopting 
safety management systems. Internally, we created the Aviation 
Safety Whistleblower Investigation Office. One of the 
cornerstones of our safety culture is to ensure that employees 
can provide information without fear of reprisal.
    While we are enhancing the safety of the system that we 
know today, we are also working to deliver the benefits of new 
technology to create the aviation system of tomorrow through 
NextGen. We are working to safely integrate Unmanned Aircraft 
Systems into our airspace. Earlier this year, as directed by 
Congress in reauthorization, we requested proposals to host six 
test sites across the country to test Unmanned Aircraft 
Systems.
    This is a matter of significant public interest. We need to 
better understand operational issues to safely integrate these 
aircraft into our national airspace. We need to explore pilot 
training and make sure that unmanned aircraft sense and avoid 
other aircraft. And if they lose the link to their ground-based 
pilot, these aircraft need to operate safely.
    If we are going to continue to move aviation forward and 
remain a world leader, we need to collaborate across the FAA as 
well as with other Government agencies and also with industry. 
Reauthorization asked us to do this, and we have made great 
strides in collaborative efforts.
    Chairman LoBiondo, as you know, Atlantic City is a leader 
in NextGen research. The William J. Hughes Technical Center 
plays a key role in fostering NextGen, and we appreciate your 
support.
    We have worked with our labor unions, with industry, 
airports, and others, to address the problem of congested 
airspace over busy metropolitan areas. We are producing 
satellite-based procedures much more quickly and we are using 
these NextGen procedures right now to reduce the miles that 
aircraft must fly to create more direct routes, to cut delays, 
and to reduce fuel burn and cut greenhouse gas emissions.
    I am pleased that the President has announced his intent to 
appoint Michael Whitaker as Deputy Administrator of the FAA. 
Mr. Whitaker is a veteran of the airline industry and will 
serve as the FAA's chief NextGen officer, responsible for 
fostering the transformation of our national airspace.
    The FAA has an initial set of NextGen metrics available on 
our Web site, and we expect to publish additional performance 
metrics in the coming months. Our NextGen performance snapshots 
show that NextGen is happening now. For example, in Chicago we 
have been able to reduce delays at O'Hare International Airport 
in bad weather, thanks to NextGen. O'Hare and nearby Midway 
Airport have overlapping airspace at times. We made better use 
of this congested airspace in the last 2 years with a 
satellite-based procedure that aircraft use when flying into 
Midway. This procedure has allowed O'Hare to improve its 
arrival rate by 8 to 12 aircraft per hour when it is rainy or 
foggy and the ceilings are low. And aircraft flying into Midway 
travel fewer miles and save fuel. This is one of the many 
positive effects of NextGen and the type of improvement that 
reauthorization supports.
    The reauthorization laid out a vision to address the future 
needs of our Nation's aviation system, and these needs have not 
gone away. It is important for us to work together to protect 
the great contribution that civil aviation makes to our economy 
of $12.3 trillion and 10 million jobs.
    As you know, we are again facing fiscal uncertainty and 
unpredictability. The sequester is requiring the FAA to make 
sizable budget cuts that affect our operations and our future. 
While we are very grateful that Congress found a temporary 
solution to the FAA furloughs, this measure does not end the 
sequester. We will not enjoy the benefits or the stability that 
reauthorization provides until we find a solution to the 
sequester and find a sensible long-term solution. I sincerely 
hope that we can work together to ensure that America continues 
to operate the safest and most efficient aviation system in the 
world.
    Mr. Chairman, this concludes my prepared remarks. I would 
be pleased to answer any questions you may have.
    Mr. LoBiondo. Thank you, Mr. Huerta. I am sure we will 
have.
    Mr. LoBiondo. In starting off, as you had indicated in your 
opening statements and statements that have been made in the 
past, the FAA Technical Center that I represent is the test and 
integration facility for NextGen. I understand now the Florida 
test bed also reports through the Technical Center, and I am 
wondering if it is appropriate to assume that the soon-to-be-
named six UAS test sites will also report to the Technical 
Center.
    Mr. Huerta. We haven't made a determination of the 
reporting because the test sites would actually be privately 
operated. What we are providing as part of the unmanned 
aircraft test site designation is a designation for them to 
operate and to perform research and analysis so that we can 
understand how these integrate into the national airspace.
    Currently, the process of selection of the test sites is 
administered through a joint program office that is jointly 
administered by our Aviation Safety Organization and our Air 
Traffic Organization. As we get later in the year we will make 
some further determinations and decisions regarding the 
selection of the test sites. We will make some decisions as to 
how best to integrate them into our organization.
    Mr. LoBiondo. So then the final testing and integration 
collaboration from the six test sites for UAS into the national 
airspace remains to be seen whether that will be done at the 
FAA's Technical Center?
    Mr. Huerta. I think what we have to see is what the 
proposals put forward and then how we best leverage that data 
across the whole FAA.
    Mr. LoBiondo. I, obviously, have a keen interest in this.
    Moving on to another topic, the FAA is currently behind on 
providing Congress with a National Facilities Consolidation and 
Realignment Report. Can you give us a status of the report and 
can you tell us will it be comprehensive and include all of the 
FAA's facility consolidation and realignment projects?
    Mr. Huerta. Yes. As you know, the consolidation of 
facilities has been something that has been a high priority for 
the agency. Reauthorization provided us important tools to 
address how we look at consolidation of facilities. One of the 
things that has bedeviled us in the past as we have looked at 
this has been that the agency used inconsistent technical 
approaches in evaluating whether or not and how best to achieve 
benefits associated with consolidation. We have been working 
collaboratively with our stakeholders and partners to work 
through a process of how we would look across the full scope of 
facilities that exist across the country. And while it has 
taken longer certainly than was anticipated by the committee 
and certainly longer than I would like to see, I think that the 
benefits of this collaboration have been quite fruitful.
    We are expecting to finalize an approach that we would like 
to share with the committee at a point in the future and talk 
about what the way forward would look like. But we are looking 
at the full scope of FAA facilities.
    Mr. LoBiondo. Any idea at what point in the future?
    Mr. Huerta. In the coming couple of months.
    Mr. LoBiondo. Couple of months.
    Last question for now. You may be aware that several 
Members have recently introduced a bill called the Small 
Airplane Revitalization Act of 2013. The legislation is 
intended to remove some outdated regulatory barriers to 
streamline certification processes and improve the well-being 
of general aviation industry, all while keeping a keen eye to 
improving safety. Have you at all been familiar with this 
legislation or have you seen it or had a chance to look after 
it?
    Mr. Huerta. I have seen the legislation. And as you know, 
Mr. Chairman, we have been working on safety improvements for 
small airplanes regulated under part 23 for quite some time 
now. We have had an Aviation Rulemaking Committee composed of 
industry experts that have been working since August of 2011 to 
review our regulations and processes and to provide actionable 
recommendations to the FAA.
    We are expecting that we would soon be receiving the ARC's 
recommendations and we will able to evaluate them for 
implementation planning and assigning resources and 
establishing timelines. I am not able to comment on the pending 
legislation, but should this legislation become law, the FAA 
will, of course, implement its provisions, as we do with any 
other mandate.
    Mr. LoBiondo. We would be interested if you and your team 
have an opportunity to take a look at this and if you have any 
suggestions you can offer us about how we can dovetail in so 
that we are sort of working together on this and not have the 
committee working on something, that you can see some 
improvements that can be suggested with.
    Mr. Huerta. We can certainly do that. On a high level, the 
approach that, as I understand the legislation, does 
acknowledge the work that has been ongoing. And I think that 
there is a great deal of convergence there. But we can take a 
look at it.
    Mr. LoBiondo. OK. We would appreciate that. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Administrator, earlier this year Chairman LoBiondo and I 
met with families of Colgan flight 3407. In February as well I 
asked you about the FAA's progress finalizing a rule on pilot 
qualifications due this August and another pilot training rule 
due in October. How would you assess the progress on both of 
those rules at this time?
    Mr. Huerta. We are making good progress. We are still 
expecting that we would publish the first rule in August and 
the second in October, as I testified in February.
    Mr. Larsen. Yeah. All right. Thanks.
    Chairman LoBiondo mentioned next week that we will be 
having a listening session. Our first one had focused on 
NextGen, and some stakeholders stressed the need for the agency 
to move more rapidly to deploy PBN routes into airports. 
Section 213 of the authorization requires FAA to report to 
Congress on its plan to implement PBN at the top 35 airports, 
but to date, we have not received that report. Can you update 
the subcommittee on your efforts to implement PBN at the top 35 
airports.
    Mr. Huerta. Well, PBN has certainly been a high priority 
for the agency. It is the centerpiece of our initiative that we 
call Metroplex. And that is a collaborative process that we are 
implementing across the country that is very much focused on 
what we can do to advance and ensure the use of advanced 
navigation procedures throughout the National Airspace System.
    The report that you mention is a report that we are 
finalizing our work in now. It is now in executive 
coordination. I hope to be able to provide it to the committee 
soon.
    Mr. Larsen. Thank you. With regards to the collaboration, 
are there certain factors that are helping that collaboration 
and other factors that are inhibiting that collaboration?
    Mr. Huerta. Well, the major thing that characterizes the 
Metroplex initiative and problems that we have had in the past, 
I think it is fair to say that in advancingperformance-based 
navigation years ago the focus was on quantity rather than 
quality. And by that, I mean that there was a lot of discussion 
about how do we develop and publish advanced navigation 
procedures and we weren't really focusing on how they were 
being used or what the operational challenges were with 
actually enabling air carriers and other users of the system to 
take advantage of them.
    What has changed is we are now very focused on these second 
two pieces, how do we ensure that they are actually being used 
so that we can get the benefit and how do we ensure that we are 
taking all the steps that are necessary to ensure that they can 
be operationalized. That includes an understanding by all of 
the users of the systems--pilots, controllers, airports--if 
there is military airspace, how does it fit into the Defense 
Department's particular requirements, what is the mix of 
traffic that might exist in a particular metropolitan area. All 
of that is crucial to being able to develop a procedure that is 
going to work for the users in the metropolitan area as a 
whole.
    There are also issues that we identified. We have had an 
effort where we have looked at the operational barriers. That 
has focused us on things such as the air traffic controllers 
handbook. We had an activity underway over the last year which 
really focused on what are specific things that we need to do 
to update and amend the air traffic controllers handbook. 
Fifteen specific changes were recommended as a part of that. We 
are expecting that we are going to complete work on about 10 of 
them by the end of this fiscal year. The others are more 
complex and will require longer term work to get them 
implemented. But the focus is on what can we do to ensure that 
these procedures are actually operational.
    Mr. Larsen. Thanks. The bill created severalmilestones for 
the safe integration of Unmanned Aircraft Systems in the civil 
airspace, and your written testimony notes that you requested 
to host six test sites around the country. In addition to some 
of the privacy issues that I tend to hear more about from folks 
when it comes to unmanned aerial vehicles and systems, what 
technical issues, so the top three or four technical issues, 
need to be resolved before we can see some safe integration 
into the NAS?
    Mr. Huerta. Well, the things that we are looking at relate 
to the types of things that I talked about in my opening 
statement. How does an aircraft operate, for example, when it 
loses link with its ground-based station and what are the rules 
under which that aircraft would operate until link could be 
reestablished? That is a different way of looking at the 
traditional aviation practice of sense and avoid. But since the 
pilot is in the remote location, if link is lost between the 
ground station and the aircraft that is flying above, then you 
have to have a clear set of procedures in place of what happens 
so that that aircraft can avoid other aircraft.
    We also need to understand how these characteristics 
actually operate in different types of airspace, different 
weather conditions, and with particular purposes in mind. For 
example, a lot has been suggested as the potential for the use 
of unmanned aircraft for such things as aerial surveys, 
environmental monitoring. And those raise questions about how 
do we ensure that those activities can be conducted safety in 
conjunction with other aircraft operating within the National 
Airspace System.
    Weather characteristics and how they operate in inclement 
weather is also a factor that we need to understand. And so 
while there is always bad weather everywhere around the 
country, we also have to understand, are there particular 
issues that come up in different climate conditions? The 
legislation anticipates that and suggests that we look at 
geographic diversity in the award of the six test sites.
    So those are some of the factors that we are focused on: 
the technical factors of how these aircraft operate, the human 
factors of how the operators actually would interact with other 
operators within the system, and then some of the questions 
relating to the use of these.
    Mr. Larsen. Great. Thanks.
    Mr. Chairman, I will have a second round, but I will yield 
back for other Members. Thank you.
    Mr. LoBiondo. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    And thank you for coming to testify. I want to pick up a 
little bit on what the chairman had touched on briefly with 
regards to the Small Aircraft Revitalization Act. I know you 
don't want to comment on that. But I think earlier this week 
you convened a general aviation safety summit there, where you 
talked about it. And part of that would be really a rewrite of 
part 23. So that is your opinion, that we need to rewrite that. 
Is that correct?
    Mr. Huerta. Well, that is what we have been working on, 
what can we do to improve part 23 to achieve the objectives 
that the industry wants to see in terms of streamlining and 
faster response time.
    Mr. Meadows. If you were to highlight three areas that you 
say, Congressman Meadows, these three areas, if we could have 
legislative assistance on those three, what would those three 
areas be?
    Mr. Huerta. I am not sure that we are at a point, since we 
are still working through the process with industry to identify 
what the priorities are, and we expect to receive that report 
from them later on this summer, but the thing that I hear 
consistently is that things just take too long, that the 
industry is very interested in what can be done to streamline 
the process of achieving a certification for new products 
coming to market. There are two dimensions to that. One is that 
it greatly reduces the amount of time for a manufacturer to get 
products into the marketplace, but there is also a cost-benefit 
associated with that, that it reduces the cost of these.
    And one of the things that we have heard loud and clear 
from the general aviation industry is that, while they see huge 
potential for improvements in safety as a result of adopting 
these technologies, they can be expensive. So what can we do 
through this process that would help bring the cost down?
    Mr. Meadows. So what would you say is the greatest barrier 
to that? Is that the National Safety Transportation Board? I 
mean, is the enemy us or is it just technology in general?
    Mr. Huerta. That is exactly what we are looking at right 
now, to try to develop a better understanding of what are those 
barriers, where can we reduce time. I think the big thing is 
time, that the requirement for certification is there for a 
good reason. You want to ensure that if you are installing 
equipment in aircraft, that it will promote safety and not have 
unintended consequences. Everyone is very interested in doing 
everything that we can to promote safety, but at the same time 
we have to make sure that we are not doing things that are 
duplicative, redundant, and take more time than they need to.
    Mr. Meadows. All right. And any specific recommendations 
that you have, I am sure the committee would love to hear those 
from you. And so if you could submit those along with your 
record.
    But let me pick up on one other thing. You talked about 
rewriting the controllers handbook.
    Mr. Huerta. Sure.
    Mr. Meadows. And we had a roundtable that the chairman kind 
of convened and I sensed a level of frustration--and that may 
be a harsh word--but a level of concern on the part of some of 
the airlines where they have installed NextGen equipment and 
yet they are saying the real barrier is FAA controllers that 
are operating under an old set of rules, and even though we 
might be able to adopt the new rules in some of the lower 
trafficked airspaces, the higher traffic that controls so much 
of the hub and spoke kind of arrangement. What are we doing to 
change that, and is there a date certain on when that might be 
changed?
    Mr. Huerta. Well, that is exactly the concern that I have 
heard, and that is why we have decided that where we need to 
focus is in metropolitan areas, and that is what Metroplex is 
really all about. We need to look at an entire metropolitan 
area, bring all the stakeholders together, and understand what 
it is that is really going on within that particular 
metropolitan area and what can we do to ensure that, first of 
all, we know what the priorities are. What are the ones that 
the industry would like to see most?
    The second point is, how do we ensure that they will 
actually get used once they are published? That raises the 
operational things like the controllers handbook and the 
operational details associated with that.
    The final point is we have to track what their utilization 
is, because you are putting them in place for a particular 
reason: You want to yield benefit. We are all in a much better 
place if we actually have solid data on their actual 
utilization. There is a lot of folklore that is out there of 
whether or not they are being used, and it is important that we 
actually have real data to do that. That is what we are trying 
to do through this initiative and why we focus it on metro 
areas.
    Mr. Meadows. So bringing those stakeholders together, do 
have you any kind of a timeframe, date certain when that is 
going to happen in terms of getting everybody together?
    Mr. Huerta. Well, it is rolling timetables that we are 
working through specific metropolitan areas. Like, for example, 
we had convened two to start, one in north Texas and one here 
in Washington. And we are actually taking advantage of 
procedures in both of those metropolitan areas that have been 
developed. Later, we started development in other metropolitan 
areas.
    And so what we are trying to do is separate out the 
development of new procedures into two buckets: What are things 
that we could do right now, what are others that are going to 
require more analytic and perhaps environmental work in order 
for us to get through the process. We have initiatives in a 
wide variety of metropolitan areas and they are all operating 
under difference schedules.
    Mr. Meadows. I appreciate the Chair's indulgence, and I 
yield back.
    Mr. LoBiondo. Thank you.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Administrator, good to see you.
    In the testimony, you talked about the consolidation, 
realignment of your facilities and said that you are engaging 
your employees. Now, as you know, there has been some 
controversy in this area before about whether or not it was 
real and meaningful involvement. Can you just give us a little 
bit of an idea what is going on and how engaged the line staff 
are in this?
    Mr. Huerta. Well, you know, I would ask them to answer that 
question as well. But I will say this. Yesterday I participated 
in a meeting of well over an hour where there were 
representatives of all of our employee organizations that would 
be affected by this and where they were making a consolidated 
presentation to me of where they are in the process.
    I think the thing that I was most impressed by was that as 
you worked your way around the table, if you didn't know the 
people, you wouldn't know who was representing the controllers 
or the specialists or the technicians or the facility 
management because they were all providing in a very 
collaborative way meaningful information of how do we get 
through this. And they were listening to one another, they were 
respecting one another's positions, and they were coming to me 
with what looked like a lot of thought. It was very clear that 
these people had been working together very closely for a long 
time.
    I thought that was a good sign. I had a bunch of questions. 
They had a lot of good answers. There are some things that they 
are continuing to work on as we are trying to move this 
forward. But certainly from my standpoint it looks like the 
collaboration is working quite well.
    Mr. DeFazio. Right. Over a number of years the committee 
has expressed concern about overseas foreign repair stations. 
And there was a reauthorization that mandated the 
implementation of a safety and assessment system. I know 
sometimes you have problems dealing with the State Department 
and other issues on this. Where are we at in terms of the 
oversight of foreign repair stations?
    Mr. Huerta. Well, as it relates to the specific State 
Department issue, the issue here related to drug testing and 
the reauthorization of the requirement that we require that at 
facilities both inside and outside of the United States, which 
raises territorial issues. And so the Secretary of State and 
the Secretary of Transportation wrote a joint letter last fall 
to the International Civil Aviation Organization membership 
asking for their willingness to support such an approach, and 
we are continuing to engage ICAO to work through developing an 
international agreement on how we move forward.
    Mr. DeFazio. OK. So not so much progress.
    Mr. Huerta. When we are dealing with international 
oversight, as you know, you have to have the consent of the 
host countries. Those are the things that we need to work 
through.
    Mr. DeFazio. Well, yeah, we do, except that we can also 
prohibit our people from using facilities that we haven't been 
able to certify meet our standards.
    Mr. Huerta. Well, I think that we have an approach that has 
served us very well in terms of in other parts of the world 
relying on the certification authorities there, just as they 
rely on us for certification of facilities that take place in 
this country. That is a process that has served the aviation 
industry quite well. But we do recognize that we need to 
continue to push the envelope on oversight, and we are doing 
that.
    Mr. DeFazio. Yeah, I mean, I am pretty confident in our 
oversight, although we have had hearings on that issue also in 
terms of how often you can get to each of these facilities, 
whether you are doing real inspections or whether you are 
inspecting paperwork that certifies inspections, et cetera. So, 
anyway, it is an ongoing concern with me and perhaps other 
members of the committee.
    And then finally a question about your certification 
process. We obviously have become somewhat more reliant upon 
the manufacturers themselves to self-certify and test things, 
and we had a recent concern regarding the new Boeing plane. So 
are you revisiting that in any way?
    Mr. Huerta. Yes. As part of the Boeing effort we undertook 
two things. One was a detailed review of the specific systems 
related to the battery. As you know, on April 19th we did 
recertify the battery system and the aircraft are now being 
modified and gradually returned to flight.
    Earlier, we had announced a review of the certification 
process related to the 787, and that review is ongoing. And it 
is one that we think is extremely important because what we 
want to understand is the whole process, are there issues that 
we need to take another look at and rethink.
    I will say this, though. Certification has always been all 
about bringing the best technical minds together to surface 
issues, to identify what do we need to do to ensure the highest 
levels of safety. But it is ultimately the FAA that has to 
issue the certification, and that is something that we take 
very seriously.
    Mr. DeFazio. OK. Well, and I appreciate the fact you are 
reviewing the process, and we don't need to add unnecessary 
layers of review and bureaucracy, but we want an effective and 
safe process. So thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you.
    Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman.
    Mr. Administrator, thank you for being here. Appreciate 
your testimony.
    Mr. Huerta. Thank you.
    Mr. Williams. I fly into DFW every Sunday. I am rooting for 
you. OK? But I am a business guy. I come from the business 
sector. Still have a business. And I hear your testimony, and 
streamlining and reforming are two key words in the FAA. And I 
guess what I would like to say--and you have touched on this a 
little but, just as a reminder, ask this question--are you 
prepared, as the private sector is prepared always, to deal 
with cutting these expenses, wasteful spending, so we are not 
in a crisis management mode like we have seen here in the past, 
that we get on a level of spending that we can still give the 
service but also not have a crisis situation every day.
    Mr. Huerta. Absolutely, sir. We have done an awful lot of 
work to try to reduce the cost of operating the agency. The 
agency has been able to make due with flat budgets for a number 
of years now, at the same time, we are trying to make 
significant investments in new technology while reducing the 
cost of operating the National Airspace System that we have 
today.
    There has been a lot of focus on areas such as acquisition 
and technology. We have seen a lot of cost savings. We will 
continue to see cost savings in that area. We are also, as we 
talked about in the last few minutes, reducing the costs 
associated with providing the regulatory oversight that we 
provide through the streamlining of processes that enable us to 
bring new products to market more quickly. We have had a lot of 
focus on what we can do to improve our acquisition processes to 
take advantage of the fact that we are a large purchaser. And, 
yes, this is something that I take very seriously.
    Mr. Williams. When you go to cutting costs, don't forget 
the customer.
    Mr. Huerta. OK.
    Mr. Williams. Thank you for your testimony.
    Mr. Huerta. Thank you, sir.
    Mr. Williams. I yield back.
    Mr. LoBiondo. Mr. Nolan.
    Mr. Nolan. Thank you, Mr. Chairman.
    And, Mr. Huerta, I apologize for coming in late, and thank 
you for your patience. I am sure they told you we had a bunch 
of votes that came up. Our schedule got somewhat conflicted. 
But congratulations for the work that you have done to 
implement the major new Federal legislation and 
reauthorization. I certainly believe that you are to be 
commended for the splendid job that you have done.
    Mr. Huerta. Thank you.
    Mr. Nolan. We are proud of you.
    Together with Congressman Pompeo and several other members 
of this committee, I am one of the sponsors of H.R. 1848, the 
Small Aircraft Revitalization Act of 2013. And as you know--and 
I saw mention of it in your testimony, and I appreciate that--
this bill will require that the FAA complete a rewrite of the 
Federal regs governing small craft by no later than 2015. If 
that bill were enacted today with your existing funding and 
authority do you anticipate you would have a problem with this 
deadline or do you feel that it is doable?
    Mr. Huerta. Well, I may have mentioned this before you came 
in, sir. This is something that we have been focused on, 
working collaboratively with industry under an Aviation 
Rulemaking Committee since August of 2011. I think at a high 
level this is very consistent with the approach that we have 
been taking. We are expecting this rulemaking committee to 
provide their report to the agency later on this summer and at 
that point we will see what the specific recommendations are 
that they are looking at and we will be in a much better place 
to assess the timetables associated with it at that point.
    Mr. Nolan. Very good. That is very helpful. Thank you.
    I didn't see any mention of the Essential Air Service 
program, which serves several airports in my district and 
throughout the country. And it has been very, very valuable, 
very helpful to our regional economic development and the 
strong regional centers. Do you anticipate that sequester will 
have an impact on this critically important program?
    Mr. Huerta. Well, while the Essential Air Service program 
is carried in the FAA budget, it is actually administered by 
the Department of Transportation under the Assistant Secretary 
for Aviation and International Affairs. And so I am not 
familiar with what their plans are for this year, but we can 
certainly get you a response for the record.
    Mr. Nolan. OK. That would be very helpful.
    And, lastly, I know you are looking at half a dozen 
different sites to be considered for the Unmanned Aircraft 
Systems test sites around the country?
    Mr. Huerta. That is correct.
    Mr. Nolan. And how many sites are you looking at? Where are 
you at in that process?
    Mr. Huerta. Well, we are in a competitive process where the 
final submissions were presented to the agency in the last 
couple of weeks. We received 25 distinct submissions from about 
half of the States, and what the legislation provides is for us 
to designate six. And we are in the evaluation process now. We 
expect to complete that process by the end of this calendar 
year.
    Mr. Nolan. OK. Thank you very much, Mr. Huerta. And, again, 
thank you for your work.
    Mr. Chairman, I yield the balance of my time.
    Mr. Huerta. Thank you.
    Mr. LoBiondo. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Thank you, Administrator Huerta. First off, I want to say 
thank you. And also to Secretary LaHood, my friend from 
Illinois, please offer my thanks to him for administering our 
recent legislation very quickly, especially to save some air 
towers in my district, and also to address the furlough issue.
    I am happy with that response. And as a new Member of 
Congress, it shows me that you did well when the time came for 
us to pass that legislation, and I have to commend you.
    I came in a little late. I got off the floor, I guess, a 
little later than some of the other Members here. So if I am 
redundant with my first question, I apologize, but it is in 
regards to the required navigation performance procedures. What 
is the FAA's plan to push for beneficial required navigation 
performance procedures?
    Mr. Huerta. Yes, this is an initiative that is a very high 
priority for us because it is something that a lot of air 
carriers are already equipped to be able to take advantage of. 
This is really the centerpiece of our effort that we call 
Metroplex, which is focused on major metropolitan areas where 
we bring together the users of the system and the operators of 
the system in a collaborative process with the intent of 
identifying what are priorities for development of navigation 
procedures, how can we get them implemented as quickly as 
possible, and then once implemented, how do we ensure that they 
are actually being used.
    It raises a host of operational issues and challenges that 
we need to work through as a group. It also raises significant 
things that we need to do on our end as well as the operator 
needing to do on their end.
    I think before you came in we were having some 
conversations about the controller hand book as illustrative of 
some of the things that we needed to work through. But it is as 
a result of bringing the stakeholders together that we 
identify, hey, we have got a problem with the controller 
handbook and we need to actually make some revisions to it. And 
so I think it is a process that has served us very well.
    It started with a program that we had in north Texas, as 
well as here in Washington. We have since expanded it to 
include most major metropolitan areas of the country. And that 
work is a very high priority for the agency.
    Mr. Davis. Great. And third parties are being used to 
expedite the delivery of these benefits?
    Mr. Huerta. Yes. Reauthorization did request that we 
consider the use of--it provided direction to us to allow for 
third-party development of these advanced navigation 
procedures. We did make a contract award under that, and that 
work is ongoing, and we actually think it is progressing quite 
well.
    Mr. Davis. OK. Thank you for ending with you think it is 
progressing quite well, because that was my next question, what 
do you think this experience is. But I will yield back the 
balance of my time, but I do want to say thank you again.
    And thank you, Mr. Chairman.
    Mr. Huerta. Thank you.
    Mr. LoBiondo. Mr. Larsen. Oh, I am sorry, Dan. I didn't see 
you there.
    Mr. Webster. I have no questions, Mr. Chairman.
    Mr. LoBiondo. No questions? OK. Apologies.
    Mr. Larsen. Administrator, the GAO previously reported on 
the need for greater consistency in the FAA's interpretation of 
standards for certification and approval decisions. And so in 
section 313 the bill required the FAA to establish an advisory 
panel to develop recommendations to address some of those 
issues raised by the GAO. What is the status of that particular 
advisory committee's work and when can Congress expect to see 
that report?
    Mr. Huerta. Now, the section 313 report is something that 
has certainly been, I think, of great importance. This is one 
of the things that I hear a lot about and it is one of the 
things that we need to figure out how we can do a better job of 
ensuring that we have consistency across the NAS.
    The report that we have developed, we do have a draft of 
the report. It is circulating within the Administration in 
executive review. And we are working through some comments on 
that and we will have to complete that coordination process 
before we can present it to Congress. But we have a good draft 
that we are working with.
    Mr. Larsen. Do you have a timeline on that?
    Mr. Huerta. I would like to say that I do.
    Mr. Larsen. I would love for you to say that you do.
    Mr. Huerta. Unfortunately, I can't really predict how long 
it is going to take to get all the comments and then to be able 
to respond to all of them.
    Mr. Larsen. Well, I think as you are communicating with the 
folks in the Administration and the executive review, letting 
them know that the committee is extremely interested as well in 
this report and the sooner that we can hear back, the better.
    Mr. Huerta. We will certainly do that.
    Mr. Larsen. Not to prolong the discussions on 
sequestration, but I am wondering if you have all done any sort 
of analysis yet of the impact of moving that $253 million out 
of AIP and what that will mean practically. I mean, 
theoretically we knew what that would mean. Do we know yet 
practically what that will mean in terms of a second round of 
AIP grants for this fiscal year?
    Mr. Huerta. Yeah. For this fiscal year the $253 million 
will come out of discretionary grants that we would award at 
the end of the year. At this point we don't have a good sense 
of what that actually means in terms of specific projects 
because those projects tend to come in very late in the year.
    Having said that, I think it is reasonable to expect that 
you would see some delays or that there might be some requests 
that would come in for AIP funding at the end of the year that 
we would not be able to meet as a result of this transfer.
    Mr. Larsen. Yeah, but it is still a little early----
    Mr. Huerta. It is still a little early, yeah. Everyone is 
still receiving their formula allocation, and so the 
entitlement funds they receive. It is really the final round of 
discretionary that would be affected.
    Mr. Larsen. OK. Just a moment.
    Yeah. In your written testimony you noted that you are 
working on the ICAO to find some solutions to address aviation 
greenhouse gas emissions and you are encouraged by the EU 
decision to stop the clock on the application of the ETS. Can 
you update the committee on the progress that FAA is making at 
ICAO on this issue?
    Mr. Huerta. Well, as you know, it is a complicated 
international negotiation, but the United States is a very 
active participant in those discussions. The expectation is 
that this will be one of the central discussions that will take 
place at the ICAO General Assembly, which is scheduled for 
later on this fall. There is a great deal of focus on the part 
of all of the members of ICAO to present actionable 
recommendations for consideration by the General Assembly this 
fall.
    Like any large body or semi-legislative body such as ICAO, 
agreements tend to emerge very late in the process. What we are 
seeing right now is a lot of discussion back and forth, a lot 
of the concerns that have been raised by developing countries 
versus developed countries. But I think that what does unify 
everyone is a sense that the only thing that is going to work 
is a global solution rather than the regional solution that had 
been proposed originally by the Europeans. So we are making 
progress. It is a very slow process. But something will need to 
be resolved in time for the general assembly this fall.
    Mr. Larsen. Thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. OK. That is it. Mr. Huerta, we thank you very 
much. I am sure we will be following up.
    And the committee stands adjourned.
    Mr. Huerta. Thank you, sir.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]

</pre></body></html>
